0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Hamilton
County Job and Family Services, et al. v. Joseph and
Melissa Siefert, was sent via Next Day Service to the
U.S. Supreme Court, and via Next Day and e-mail
service to the following parties listed below, this 18th
day of September, 2020:
Ted L. Wills
Law Office
414 Walnut Street
Suite 707 Mercantile Library Building
Cincinnati, OH 45202
(513) 721-5707
TedLWills@aol.com
Counsel for Respondents
J. David Brittingham
Counsel of Record
Jason R. Goldschmidt
Dinsmore & Shohl LLP
255 East Fifth Street
Suite 1900
Cincinnati, Ohio 45202
(513) 977-8200
david. brittingham@dinsmore.com
j ason.goldschmidt@dinsmore.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
' Washington, DC 20005

James W. Harper
Jerome A. Kunkel
Eric A. Munas
Assistant Prosecuting Attorneys
230 East Ninth Street
Suite 4000
Cincinnati, Ohio 45202
(513) 946-3000
james.harper@hcpros.org
jerry.kunkel@hcpros.org
eric.munas@hcpros.org

Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 18, 2020.

Donna J. Wolf
Becker Gallagher Legal Publishin g, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affi.ant on the date below designated.

[seal]

JOHN D. GALLA HER
Notary Pulte,
of Ott!o
My Comrmsion Explm
February 14, 2023

